U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Monico Dominguez v. United States of America,
S.Ct. No. 20-1000

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 21,
2021, and placed on the docket on January 26, 2021. The government’s response is due on
February 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1000
DOMINGUEZ, MONICO
USA

MARK CHRISTOPHER FLEMING
WILMER CUTLER PICKERING HALE AND
DORR LLP
60 STATE STREET
BOSTON, MA 02109-1803
617-526-6909
MARK.FLEMING@WILMERHALE.COM
ALLISON M. SCHULTZ
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON , DC 20006
202-663-6000
GENE D. VOROBYOV
LAW OFFICES OF GENE VOROBYOV
450 TARAVAL STREET
#112
SAN FRANCISCO, CA 94116
415-425-2693
GENE.LAW@GMAIL.COM

